Supreme G-ourt, U.S.
RLED

MG - 2 2021
No. 21-

2EQCE0FTHECLERK

lk*1

3fn tlje

Supreme Court of tfje fSntteb States
TIMOTHY DASLER,
Petitioner,

v.

JENNIFER DASLER,
Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Vermont
PETITION FOR WRIT OF CERTIORARI

Timothy Dasler
Petitioner Pro Se
488 NH Route 10 Apt D
Orford, NH 03777
(802) 369-9993

August 2,2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

received

AUG - 5 2021
9r.FD'giM0EFcToH5RcTLEuRsK

1

QUESTION PRESENTED
Fraud Upon the Court is necessarily a sliding
scale. When a state process allows a party to waive
their own burden of proof through pre-trial election
and an ex-parte action based upon fraud, it allows
one party to deprive another party of rights without
burden of proof. In this case the moving party need
only fabricate probable cause in an ex-parte action to
deprive the court of the authority to burden them
with proof. In doing so, the court cannot properly
function as a result of Vermont State precedent, and
an accusation with “no credible factual basis” can
result in irreparable harm.
The Question Presented Is:
Is it Unconstitutional to allow a party to make
pre-trial elections that deprive another party their
due process rights?
k •

11

LIST OF PROCEEDINGS
Vermont Supreme Court
No. 2020-146
Dasler v. Dasler
March 5, 2021

Orange County Family Court
No. 74-6-17 Oedm
Dasler v. Dasler
April 1, 2020

Vermont Supreme Court
No. 2018-301
Dasler v. Dasler
July 8, 2019
Vermont Supreme Court
No. 2018-301
Dasler v. Dasler
June 3, 2019
Orange County Family Court
No. 74-6-17 Oedm
Dasler v. Dasler
August 17, 2018

Ill

LIST OF PROCEEDINGS (CONT.)

Orange County Family Court
No. 74-6-17 Oedm
Dasler v. Dasler
February 23, 2018
Orange County Family Court
No. 37-5-17 Oefa
Dasler v. Dasler
August 1, 2017
Orange County Family Court
No. 37-5-17 Oefa
Dasler v. Dasler
May 23, 2017

IV

TABLE OF CONTENTS
Page
QUESTION PRESENTED............................

1

LIST OF PROCEEDINGS.............................

11

TABLE OF AUTHORITIES..........................

vi

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

2

JURISDICTION.................................................

2

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED .

3

STATEMENT OF THE CASE...........................

11

A. Statement of Facts..................................

11

B. 2019 Vermont Supreme Court Appeal...

18

C. Resolution of Criminal Charges............

19

D. Relief From Judgement Motion.............

19

REASONS FOR GRANTING THE PETITION...... 22
I.

Summary of Argument...

22

II. 14th Amendment Issues.

25

III. Fraud Upon the Court....

35

IV. Opportunity to Be Heard

37

CONCLUSION...........................

39

V

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS

Opinions and Orders
Order of the Vermont Supreme Court
(March 5, 2021).................................................. la
Order of the Vermont Superior Court, Orange
Unit Family Division (January 23, 2020)........ 9a
Rehearing Order
Order of the Vermont Superior Court, Orange
Unit Family Division (May 4, 2020)............... 15a
Other Documents
Defendant Timothy Dasler Motion to
Reargument (March 8, 2021)........................... 17a
Defendant Timothy Dasler Motion to Reconsider
(April 14, 2020)................................................. 37a
Motion for Relief from Judgement
(January 9, 2020).............................................. 49a

VI

TABLE OF AUTHORITIES
Page
CASES
Alistyen v. Martin,
2016 WL 1824435..........................................

32

Bancroft v. Bancroft,
154 Vt. 442, 578 A.2d 114 (1990)................

28

Braun v. Zhiguo Fu,
No. Ilcv04383 (CM) (DF), 2015 U.S. Dist.
LEXIS 90652 (S.D.N.Y. 6/9/2015)...............

36

Cabot v. Cabot,
166 Vt. 485 (1997)......................................... 14, 19
DeBeaumont v. Goodrich,
162 Vt. 91 (1994)............................................

32

Godin v. Godin,
168 Vt. 514, 725 A.2d 904 (1998)................

35

Harris v. Harris,
149 Vt. 410 (1988)............................. .............

32

Kerwit v. N.&H.,
No. CA-3-4282, 1978 U.S. Dist. LEXIS
14425 (N.D. Tex, 11/10/1978)......................

36

Knutsen v. Cegalis,
2016 VT 2, 2017 VT 62................................ passim
MacCormack v. MacCormack,
13 VT64 (2015)..............................................

32

Montgomery v. Cheshire Handling,
186 Vt. 656, 987 A.2d 337 (2009)................

35

Mullin v. Phelps,

162 Vt. 250, 647 A.2d 714 (1994).............

29

Vll

TABLE OF AUTHORITIES - Continued
Page
Rogers v. Parrish,
19 VT 35 (2007).......................................

32

Rozier v Ford Motor Co.,
573 F.2d 1332 (5th Cir. 1978)..................

35

Santosky v. Kramer,
455 U.S. 745 (1982)................................

25, 30

Stanley v. Illinois,
405 U.S. 645(1972)................................

25, 30

Troxel v. Granville,
530 U.S. 57 (2000)..................................

25

United States v. International Telephone &
Telegraph Corp., 349 F. Supp. 22
(D. Conn. 1972) aftd without opinion,
410 U.S. 919 (1973).................................

36

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V...........................

passim

U.S. Const, amend. XIV, § 1............

passim

Vlll

TABLE OF AUTHORITIES - Continued
Page
STATUTES
5 V.S.A. § 650...............

10, 31

13 V.S.A. § 2451...........

7

15 V.S.A. § 665.............

passim

15 V.S.A. § 665(9).........

17

15 V.S.A. § 668a...........

3

22 U.S.C. § 9003...........

10, 27

28 U.S.C. § 1257(1)......

2

NH Rev Stat § 461-A:11

7

JUDICIAL RULES
Vt. R. Civ. P. 60........

.. passim

Vt. R. Civ. P. 60(b)(6)

2, 34, 35

OTHER AUTHORITIES
James W. Bozzomo,
Joint Legal Custody: A Parent's
Constitutional Right in a Reorganized
Family, 31 HOFSTRA L. Rev. 547 (2003)

28

1

m
PETITION FOR A WRIT OF CERTIORARI
Petitioner Timothy Dasler respectfully requests
review to resolve open issues that cause wildly different
interpretations of 5th Amendment protection of Parental
Rights. With Federal District Courts abstaining from
Domestic Relations cases the Supreme Court remains
the only court giving direction to the state courts,
leaving Family Court a bit like the Wild West.
Also implicated are varying interpretations of
Rule 60, Fraud Upon the Court, and a Full and Fair
Opportunity to Litigate. When states adopt Federal
rules, Federal precedent should be controlling.
Vermont takes a very narrow view of Fraud Upon
the Court and District Court interpretation varies as
well. More reasonably, Mr. Dasler proposes a definition
focused on cause and effect, akin to N.Y. District Court
interpretation.
Mr. Dasler also proposes that when there is para­
llel civil/criminal litigation and neither a stay, nor
immunity is available to prevent prejudice (when
pleading the 5th) a Full and Fair Opportunity is impli­
cated. In such instances, Rule 60 should be interpreted
to provide a fail-safe to allow the accused to come
back in a supplemental hearing to present the excluded
evidence and allow the court to determine what equit­
able remedy should be available if the previously
excluded evidence would change the result of the prior
judgement.

2

OPINIONS BELOW
The Supreme Court of Vermont issued its final
order on March 5, 2021. (App.la). The Vermont
Superior Court, Family Court issued its opinion on
January 23, 2020. (App.9a). In summary, the Relief
From Judgement Appeal resulted in affirming the
lower court decision with no change. Although Justice
Robinson acknowledged that Mr. Dasler’s argument
about the Hobson’s choice and Rule 60(b)(6) as the
only form of relief was a “new argument”, the court
did not find that it should disturb the discretion of
the lower court in a Rule 60 motion or that the 1 year
time limit was excepted by these circumstances.
The court did not find that the lower court was
obligated to provide any avenue for Mr. Dasler to
litigate without prejudice in Family Court while Ms.
Dasler was working both Civil and Criminal courts
as an interested party.

JURISDICTION
This petition is being filed within 150 days of the
Supreme Court of Vermont final order dated March 5,
2021. The jurisdiction of this Court is invoked pursu­
ant to 28 U.S.C. § 1257(1).

3

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
U.S. Const, amendment. XIV, § 1.
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the privileges
or immunities of citizens of the United States;
nor shall any state deprive any person of life,
liberty, or property, without due process of law;
nor deny to any person within its jurisdiction
the equal protection of the laws.
U.S. Const, amendment. V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a present­
ment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in
the militia, when in actual service in time of war
or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy
of life or limb; nor shall be compelled in any
criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be
taken for public use, without just compensation.
15 V.S.A. § 668a
(c) If a custodial parent refuses to honor a non­
custodial parent’s visitation rights, the court shall
enforce such rights unless it finds good cause for

4

the failure or that a modification of the visitation
rights is in the best interests of the child. Unless
restoration of the visitation is not in the best
interests of the child, enforcement of the visitation
rights shall include the restoration of the amount
of visitation improperly denied. When a party files
a motion for enforcement of parent-child contact
under this subsection, the court shall conduct a
hearing within 30 days of service of the motion.
(d) A person who violates this section may be
punished by contempt of court or other remedies
as the court deems appropriate, including awarding
attorney’s fees and costs to the prevailing party.
(e)(l) If a custodial parent refuses to honor a non­
custodial parent’s visitation rights without good
cause, the court may modify the parent-child
contact order if found to be in the best interests
of the child. Good cause shall include:
(A) a pattern or incidence of domestic or sexual
violence;
(B) a reasonable fear for the child’s or the
custodial parent’s safety; or
(C) a history of failure to honor the visitation
schedule agreed to in the parent-child contact
order.
(2) A custodial parent, upon a showing of good
cause as defined in subdivision (l)(A) or (B) of
this subsection, may receive an ex parte order
suspending a noncustodial parent’s visitation
rights until a court hearing is held. A hearing
shall be held within 14 days from the issuance of
the order.

5

(f) All parent-child contact orders issued by the
family division of the superior court in connection
with a divorce or parentage proceeding shall bear
the following statement: “A Person Who Fails
to Comply with Alt, Terms of the Current
Order Governing Parent-Child Contact May
Be Subject to Contempt of Court Charges, the
Court May Impose Additional Remedies, Including
a Modification of the Current Parent-Child Contact
Order If Found to Be in the Best Interests
of the Child.”
15 V.S.A. § 665-Rights and responsibilities order;
best interests of the child
(a) In an action under this chapter, the court
shall make an order concerning parental rights
and responsibilities of any minor child of the
parties. The court may order parental rights and
responsibilities to be divided or shared between
the parents on such terms and conditions as
serve the best interests of the child. When the
parents cannot agree to divide or share parental
rights and responsibilities, the court shall award
parental rights and responsibilities primarily or
solely to one parent.
(b) In making an order under this section, the
court shall be guided by the best interests of the
child and shall consider at least the following
factors:
(l) the relationship of the child with each parent
and the ability and disposition of each parent
to provide the child with love, affection, and
guidance;

6

(2) the ability and disposition of each parent to
assure that the child receives adequate food,
clothing, medical care, other material needs,
and a safe environment;
(3) the ability and disposition of each parent to
meet the child’s present and future develop­
mental needs;
(4) the quality of the child’s adjustment to the
child’s present housing, school, and community
and the potential effect of any change;
(5) the ability and disposition of each parent to
foster a positive relationship and frequent
and continuing contact with the other parent,
including physical contact, except where
contact will result in harm to the child or to
a parent;
(6) the quality of the child’s relationship with the
primary care provider, if appropriate given
the child’s age and development;
(7) the relationship of the child with any other
person who may significantly affect the child;
(8) the ability and disposition of the parents to
communicate, cooperate with each other,
and make joint decisions concerning the
children where parental rights and responsi­
bilities are to be shared or divided; and
(9) evidence of abuse, as defined in section 1101
of this title, and the impact of the abuse on
the child and on the relationship between
the child and the abusing parent.

7

(c) The court shall not apply a preference for one
parent over the other because of the sex of the
child, the sex of a parent, or the financial resources
of a parent.
(d) The court may order a parent who is awarded
responsibility for a certain matter involving a
child’s welfare to inform the other parent when
a major change in that matter occurs.
(e) The jurisdiction granted by this section shall
be limited by the Uniform Child Custody Juris­
diction and Enforcement Act, if another state
has jurisdiction as provided in that act. For the
purposes of interpreting that act and any other
provision of law which refers to a custodial
parent, including 13 V.S.A. § 2451, the parent
with physical responsibility shall be considered
the custodial parent.
NH Rev Stat §461-A:11. Modification of Parental
Rights and Responsibilities.I.

The court may issue an order modifying a
permanent order concerning parental rights
and responsibilities under any of the following
circumstances:
(a) The parties agree to a modification.
(b) If the court finds repeated, intentional,
and unwarranted interference by a parent
with the residential responsibilities of
the other parent, the court may order a
change in the parental rights and
responsibilities without the necessity of
showing harm to the child, if the court
determines that such change would be

8

in accordance with the best interests of
the child.
(c)

If the court finds by clear and convincing
evidence that the child’s present environ­
ment is detrimental to the child’s physical,
mental, or emotional health, and the
advantage to the child of modifying the
order outweighs the harm likely to be
caused by a change in environment.

(d) If the parties have substantially equal
periods of residential responsibility for
the child and either each asserts or the
court finds that the original allocation
of parental rights and responsibilities
is not working, the court may order a
change in allocation of parental rights
and responsibilities based on a finding
that the change is in the best interests
of the child.
(e)

If the court finds by clear and convincing
evidence that a minor child is of suffi­
cient maturity to make a sound judg­
ment, the court may give substantial
weight to the preference of the mature
minor child as to the parent with whom
he or she wants to live. Under these
circumstances, the court shall also give
due consideration to other factors which
may have affected the minor child’s
preference, including whether the minor
child’s preference was based on undesir­
able or improper influences.

9

(6

The modification makes either a minimal
change or no change in the allocation of
parenting time between the parents,
and the court determines that such
change would be in the best interests of
the child.

(g) If one parent’s allocation of parenting
time was based in whole or in part on
the travel time between the parents’
residences at the time of the order and
the parents are now living either closer
to each other or further from each other
by such distance that the existing order
is not in the child’s best interest.
(h) If one parent’s allocation or schedule of
parenting time was based in whole or
in part on his or her work schedule and
there has been a substantial change in
that work schedule such that the existing
order is not in the child’s best interest.
(i)

II.

If one parent’s allocation or schedule of
parenting time was based in whole or
in part on the young age of the child,
the court may modify the allocation or
schedule or both based on a finding
that the change is in the best interests
of the child, provided that the request
is at least 5 years after the prior order.

Except as provided in RSA 461-A:11, I(b)-(i)
for parenting schedules and RSA 461-A:12
for a request to relocate the residence of a
child, the court may issue an order modifying
any section of a permanent parenting plan

10

based on the best interest of the child. RSA
461-A:5, III shall apply to any request to
modify decision-making responsibility.
III. For the purposes of this section, the burden
of proof shall be on the moving party.
5 V.S.A. § 650. Legislative findings and purpose
The legislature finds and declares as public policy
that after parents have separated or dissolved
their civil marriage, it is in the best interests of
their minor child to have the opportunity for
maximum continuing physical and emotional
contact with both parents, unless direct physical
harm or significant emotional harm to the child
or a parent is likely to result from such contact.
The legislature further finds and declares as public
policy that parents have the responsibility to pro­
vide child support, and that child support orders
should reflect the true costs of raising children
and approximate insofar as possible the stan­
dard of living the child would have enjoyed had
the family remained intact.
22 U.S.C.S. § 9003 (2) In the case of an action for the return of a
child, a respondent who opposes the return of
the child has the burden of establishing—
(A) by clear and convincing evidence that one of
the exceptions set forth in article 13b or 20
of the Convention applies; and
(B) by a preponderance of the evidence that any
other exception set forth in article 12 or 13
of the Convention applies.

11

STATEMENT OF THE CASE
A.

Statement of Facts

Mr. and Ms. Dasler were married in 2012 and had
a child in 2015. Both parties were involved in their
daughter’s daily care. There were no allegations of
abuse until Mr. Dasler told Ms. Dasler he was leaving
on 5/12/17.
The parties agreed on 5/12/17 that Mr. Dasler
would take the child for the first overnight, and sepa­
rated for the workday (6/12/18 transcript Pg. 86).
Ms. Dasler left work early that afternoon seeking
to intercept Mr. Dasler, and called him to get his
location, later alleging Mr. Dasler attempted to
“abduct” the child (2/28/18 Motion to Correct and
Reconsider Pg. 24, and 12/12/17 Pg. 4, 11). Although
she claimed in later testimony that she could hear
the minor child in the background (2/28/18 Motion to
Correct and Re-Consider 43-44, 6/11/18 Pg. 112) her
Relief From Abuse Complaint affidavit on 5/15/17
said she “checked daycare” to confirm whether or not
the child was there AFTER the call with Mr. Dasler,
which is completely at odds with the later claims
that she could hear the child on the call.
The court ultimately accepted Ms. Dasler’s version
of events it is incontrovertible that Mr. Dasler had
repeatedly tried to escape conflict with Ms. Dasler
numerous times, and Ms. Dasler left work early
seeking Mr. Dasler out. Even then, Ms. Dasler was
seeking Mr. Dasler and he was avoiding conflict.
While Ms. Dasler claims Mr. Dasler lied about his

12

whereabouts it is clear that she checked for him at 2
destinations (daycare, then home) on his stated route.
At no point is Mr. Dasler pursuing Ms. Dasler, but
she is pursuing him.
Ms. Dasler admits that her kidnapping fear is
rooted in her childhood when cousins were kidnapped
by their father in the midst of a divorce (2/16/18
transcript Pg. 83). This has nothing to do with Mr.
Dasler, however, it does explain why she repeatedly
makes unfounded kidnapping accusations and claims
Mr. Dasler is a “flight risk” while seeking to prevent
him from being alone with the child after he said he
was leaving (12/12/17 motion pg. 4, 8, 9, and 13,
12/6/18 Pg. 3, 2/28/18 Motion to Reconsider Pg. 24
and 2/16/18 transcript Pg. 64).
Mr. Dasler’s 1/20/20 Motion for Relief from Judg­
ment (subject of this appeal) lays out the cell phone
evidence later uncovered that shows Ms. Dasler called
an attorney to arrange the relief from abuse filing
BEFORE there was probable cause, then set out on
an intercept course for Mr. Dasler, and followed Mr.
Dasler to multiple points on his stated route in order
to fabricate probable cause. The attorney she called
was only involved in the case insofar as he signed
her Relief From Abuse paperwork the next business
day before the court opened, and her call log indicates
this was arranged before she had probable cause.
Ms. Dasler admits she physically confronted Mr.
Dasler, and physically took the child, body blocked
Mr. Dasler, and repeatedly used physical force against
Mr. Dasler to prevent previously agreed upon parent
child contact. She states her reason for using force
was the fear of him putting the child to bed late. Ms.
Dasler claims Mr. Dasler then pushed her, left, and

13

both parties called the police. No photos or other evi­
dence of injuries have ever been presented. Mr.
Dasler has not testified about this incident because
there are charges pending, however, he pled not
guilty (accepted a lesser plea after the divorce order)
and denied her accusations. (6/11/18 Transcript Pg
112, 2/28/18 Motion to Reconsider Pg. 45, 66-71, and
6/12/18 Transcript Pg. 88-89)
Mr. Dasler was arrested, and Ms. Dasler filed a
Complaint for Relief from Abuse on Monday 5/15/17
(the next day the court was open). Consequently Mr.
Dasler was stripped of parental rights and visitation
by temporary ex-parte order signed by the judge
5/23/17 based solely on the 5/12/17 accusation. A
hearing date on a final Relief From Abuse order was
scheduled for 6/6/17, but delayed until 8/1/17. In the
meantime the only option for Mr. Dasler to have any
contact with the child was mediation with Ms.
Dasler.
The 6/9/17 Stipulate Re: Parent Child Contact
was the result of mediation. Ms. Dasler only allowed
Mr. Dasler 4 hours per week with the promise of
“normalizing contact”, however, Ms. Dasler would
use this weekly contact as a platform for 7 more
motions totaling 170 pages seeking to further restrict
Mr. Dasler’s contact. These accusations were either
unfounded, proven false, or did not seek to prevail by
providing evidence or sufficient detail of any accusation.
For example; when accusing Mr. Dasler of sending
abusive, harassing, insulting, frightening, humiliating,
hateful, rude, and mean text and emails in motions
between 12/5/17 and 2/28/18 they never provided any
such evidence. While saying visits weren’t ‘safe’ they
failed to detail why exactly they weren’t safe.

14

Ms. Dasler’s self-award of the role of custodial
parent (through the 5/15/17 ex-parte action) allowed
her to dictate the terms of visitation. She chose to
have 4 exchanges per week face to face, using this to
fuel the accusations in motions throughout 2017early 2018. Ms. Dasler even instructed daycare to go
in to “lockdown” if Mr. Dasler arrived when he
otherwise could have had visitation with her in her
daycare setting (2/28/18 Motion to Stay Visitation
Pg. 18-19). Ms. Dasler had many options to avoid
face-to-face interactions but allow visitation, but she
insisted upon the arrangements that drove conflict
giving her ample opportunity for additional false
allegations in the hopes of strengthening her custody
case.
In VT Family Court the accuser continues to
benefit from driving conflict (see Cabot below). Having
obtained any restriction on the child’s contact with
the other parent, whether or not there was a finding
that parent was unfit, the custodial parent continues
to be counted as “primary caregiver” the longer this .
arrangement continues (8/17/18 Order Pg. 22). In
theory the statute considering “best interest of the
child” 15 V.S.A. § 665 penalizes a parent for not
being willing to “foster a relationship” with the other
parent, however, in VT the court is “not free to
punish” (Cabot, 166 Vt. 485, 488, 697 A.2d 644, 646
(1997)) a parent who refuses contact in violation of
court order and contrary to the child’s best interest (also
see Knutsen.), nor can it award joint custody to shield
the child from the harm caused by a parent abusing
parental rights/contact (as in Cabot).
Ms. Dasler’s suspension of visitation and Relief
from Abuse filings were adjudicated on 8/l/17(while

15

Mr. Dasler pled the 5th). The court reaffirmed the
prior order to “normalize contact”, and end ended the
suspension of visitation (which Ms. Dasler implemented
without court approval, and in violation of the standing
order at that time)
Between separation on 5/12/17, and the June
2018 Final Divorce Hearings, Ms. Dasler’s 3 additional
criminal complaints and 7 filings seeking to obstruct
Mr. Dasler’s contact (all within 9 months of separation)
were rejected.
It should be noted that Mr. Dasler started record­
ing interactions after the 5/12/17 accusation, and each
of the subsequent accusations were disproven. Whether
it was an attempt to get the child on a restraining
order with the black eye accusation of 7/19/17, the
stalking accusation of 11/11/17, the 2/25/18 call to
police, or the other numerous claims in the 170 pages
of filings, Ms. Dasler has failed to accomplish the
same fraud even with her parents corroborating
stories like the “black eye” that never was.
In 200+ pages of filings to date, the only accusation
the court accepted is the one made prior to Mr. Dasler
recording, the one on 5/12/17 which is the subject of
this Relief from Judgement motion where Mr. Dasler
seeks an opportunity to present a case.
So strong is the protection for the self-proclaimed
victim that even this mountain of unfounded allegations
fails to lead the court to doubt Ms. Dasler so long as
Mr. Dasler is silenced on the initial allegation. Conse­
quently, the court fails to hold Ms. Dasler to account
for violating orders and filing false and unfounded
accusations. Instead the court ordered Mr. Dasler not
to record exchanges, and held the recordings against

16

Mr. Dasler as “exacerbating the parties’ challenges”
rather than recognizing that it was necessary in his
defense.
In the final ruling the court found that while Ms.
Dasler’s many attempts to restrict parental contact
were not found to be accurate, they were in good
faith. Mr. Dasler, on the other hand, would be
penalized for simply being “ginger” in communica­
tion, and counted that as contrary to the child’s
interest under 15 V.S.A § 665.
Considering the frequency of accusations, pending
criminal trial, and a restraining order it would appear
that Mr. Dasler was caught in a double bind with the
court. One word that could be construed as harassing
or threatening would land him in jail and suspend
parental contact. In spite of her accusations it actually
found him on the other extreme of “gingerly avoiding]
discussing parenting issues directly”, and relied on
the child’s therapist to sort through parenting issues
(8/17/18 Order Pg 22) and still held that against him.
Amidst all the claims of high-conflict and danger, he’s
actually punished for being too mellow in the face of
these attacks and legal restrictions.
This only highlights how subjective the scrutiny
is when courts are compelled to pick a ‘favorite’ to
justify stripping one parent’s rights rather than being
compelled to craft orders seeking to preserve the rights
of the parties.
In the divorce hearing Ms. Dasler’s counsel (Attor­
ney Loftus) questioned Mr. Dasler about the content
of an email urging Ms. Dasler to get mental health
treatment. Mr. Dasler subsequently testified about
Ms. Dasler’s mental health issues that have been life

17

threatening to both parents, and prompted emergency
police and medical response (6/12/18 201-210 and
226-231).
Because Mr. Dasler did not raise Ms. Dasler’s
mental health issues prior to cross examination, the
court did not put any weight on the issue, although,
it accepted Mr. Dasler’s version of events (8/17/18
Order Pg 10).
In weighing the factors of the “best interest” of
the child the court relied on 3 factors, which it found
to “slightly favor” Ms. Dasler. All factors rely on Ms.
Dasler’s control over the process and obstruction of
Mr. Dasler’s rights. None constitute harm to the
child that justifies interference of parental rights
(8/17/18 Order Pg 17).
The court found that Ms. Dasler was primary
caregiver because she alienated Mr. Dasler for 9
months while he awaited a hearing in which he could
actually testify (8/17/18 Order Pg 2l). Having only
met ‘probable cause’ for the initial accusation she
was able to compound that by stalling “normalization
of contact”, and violating court ordered contact. This
is why the Mediation agreement and subsequent
order in June 2017 did not result in “normalization”
without 2 more hearings where Mr. Dasler had to
defend the order without just cause.
In considering 15 V.S.A. § 665(9), evidence of
abuse, the court ignored her admissions of stalking
Mr. Dasler, her admission of attempts to physically
control him., and excused her incontrovertible violations
of the court order. Without Mr. Dasler being able to
raise the issues of Ms. Dasler’s history of violence
and mental health issues, as cited in his Relief from

18

Judgement Motion, the court could not fairly consider
this factor.
In the courts final conclusion on custody, the
dominant factor was the temporary ex-parte order
(obtained through fraud) that allowed Ms. Dasler’s
self-award of the “primary caregiver” role. Two factors
that “slightly favor” Ms. Dasler were Ms. Dasler’s
“ginger” communication (resulting from the legal con­
straints of Ms. Dasler’s litigiousness, and steady flow
of accusations), and the allegation of abuse that Mr.
Dasler was unable to defend against due to the
Hobson’s choice described previously.
B.

2019 Vermont Supreme Court Appeal

On appeal to the VT Supreme Court Mr. Dasler
requested the restraining order be included in the
record for him to reference in his brief, and requested
a copy of the audio exhibit from the hearing. During
the divorce hearing it was clear that the court was
referencing the restraining order file (RFA) while at
the bench in the hearing (6/11/18 Transcript Pg. 116),
but the VT Supreme Court excluded the restraining
order file from the record on appeal with exception of
the transcript that Ms. Dasler submitted with her
2/28/18 motion after the judge ruled in the hearing
on 2/16/18 that the restraining order was not going to
be re-heard in the temporary custody hearing, thus
they submitted the transcript in a motion anyways.
The VT Supreme Court did not recognize the
factual errors because modifying evidence is excluded.
In considering the court’s factual findings, we “viewD
the evidence in the light most favorable to the
prevailing party and exclud[e] the effect of modifying

19

evidence.” Cabot v. Cabot, 166 Vt. 485, 497 (1997)
(quotation omitted).
In excluding all modifying evidence the court
simply wouldn’t know whether or not the findings
are reasonable or even plausible in light of the evidence
because the evidence isn’t reviewed any further than
to verify that there is at least some evidence to support
the finding.
The SCOV did not find issue with the Hobson’s
choice faced by lack of protection while facing parallel
litigation fueled by the same party.
C.

Resolution of Criminal Charges

Mr. Dasler signed a No Contest Plea to lesser
charges of Disturbing the Peace late in 2019, allowing
him to finally be free of the Hobson’s choice, and he
presented the 1/20/20 Motion for Relief from Judgement
soon after.
D.

Relief From Judgement Motion

Mr. Dasler’s 1/20/20 Motion presents the argument
that he did not have a fair opportunity to litigate. The
constitutional deficiencies may not have been clear
while he pled the 5th, and the court may have simply
presumed it was a case of his word against hers. The
existence of evidence of her fraud, however, was
unavailable until after the Final Divorce Hearing
and presents a much stronger case than one word
against another.
The cell phone evidence establishes that Ms.
Dasler set up the Relief From Abuse filing BEFORE
she had probable cause, then called Mr. Dasler seeking
his location, and location data proves she followed

20

him to multiple locations on his route before cornering
him alone. Consistent with her earlier affidavit (and not
the later version accepted by the court), Ms. Dasler
checked on the child at daycare and decided to leave
the child for Mr. Dasler to pick up and follow him to
the marital home to corner him so she could fabricate
cause for the RFA that she already arranged.
Mr. Dasler’s own testimony was also excluded, so
he could not have fairly defended himself, and taken
with Ms. Dasler’s admission of using physical force to
control Mr. Dasler, indicates that she was not only
the aggressor, but applied greater force than Mr.
Dasler and prevailed as he fended off her attacks.
Every element that favors Ms. Dasler in this case
would necessarily be shifted if the court recognized
that even the initial accusation was based upon fraud.
This was never a case of a scared mother abused by
her spouse. Rather it much more resembles the Amy
Cooper effect, which became famous in recent times
where Amy was caught on video calling 911 falsely
alleging a man threatening her because she didn’t
want him challenging her for having her dog off
leash in the park. That is precisely how Ms. Dasler
has repeatedly used the Vermont Family Court, and
as described earlier in Knutsen, the SCOV precedent
renders the Family Court utterly incapable of addres­
sing such abuse, nor is it able to shield children from
that form of harm.
If a hearing were granted, and Mr. Dasler was
free to litigate, he would be able to present her
history of abuse, life threatening mental health issues,
present the Police Reports supporting prior incidents,
and actually defend himself against the allegations
of abuse. The court could craft an order that more

21

reasonably reflects the needs of the child in light of a
more accurate rendering of the environment that the
child lives in.
The court focused on the 1 year time limit,
concluding that Mr. Dasler had not presented a case
for Fraud Upon the Court or inconsistencies with due
process.
Mr. Dasler contends, as described in above (under
the Reasons For Granting The Writ), when the state
statute and precedent allow a party to use pre-trial
election and ex-parte action to grant themselves a
change of status that denies due process to the
accused, Fraud Upon The Court is met. Ms. Dasler
shifted the burden to Mr. Dasler, and the court was
deprived of the authority to burden her with justifying
her self-award of rights rather than requiring that
Mr. Dasler rebut her self-award with a showing of
harm. She very clearly subverted the machinery of
the court.
Moreover, nothing in the court’s findings approach
a standard that justifies interfering with Mr. Dasler s
parental rights, and the statute and precedent com­
pelling the court to infringe on rights is Unconstitu­
tional and inconsistent with due process (also as
described under Reasons For Granting the Writ)

22

REASONS FOR GRANTING THE PETITION
I.

Summary of Argument

1. Resolve disparity between state interpretation
of 14th Amendment Rights. In this case, the erroneous
interpretation of the Vermont courts led to additional
action, which also highlights a lower standard of pro­
tection that extends to Rule 60 actions, interpre­
tation of Fraud Upon the Court, and what constitutes
an Opportunity to Be Heard. All of which have been
interpreted differently in state and Federal courts.
2. In the case at bar, the Supreme Court of
Vermont (hereafter SCOV) constrained this case with
precedent erroneously interpreting Parental Rights
under the Constitution, Rule 60 action, and what
constitutes an Opportunity to Be Heard. This allowed
one party to a suit to deprive the court of discretion
to preserve the rights of an adverse party to the suit.
The appeal in this 'case was heard by the Rocket
Docket, which is a sub-panel that is created specifically
to apply precedent, and the proceeding foreclosed a
legitimate challenge to court precedent. In this pro­
ceeding, only cine justice reads the brief while the
rest get a summary prepared by Staff Attorneys who
also draft the opinion. Oral argument is 5 minutes,
so the opportunity to present directly to the justices
is extremely limited, and does not constitute a realistic
opportunity to present a challenge to Vermont prece­
dent that defined this case.
3. The Uniform Child Custody Jurisdiction and
Enforcement Act (hereafter UCCJEA) forecloses Diver-

23

sity Jurisdiction of Federal courts. In many cases it
compels residents of one case to submit to the
authority of a neighboring state (where they have no
representation in government). Without significant
Federal guidance, state courts have varied wildly in
interpretation of Parental Rights under the Constitu­
tion. Many states presume equal rights of the parents
upon the dissolution of marriage, which can properly
be inferred by the limited SCOTUS precedent on
parental rights. If marriage doesn’t grant parental
rights, then dissolution of marriage shouldn’t dissolve
them. Another cause of action is needed requiring
Clear and Convincing Evidence of harm to open the
door to disturb equal rights. Many states adopt this
view. Vermont, conversely, can strip a parent to 25%
visitation after divorce with no showing of unfitness
or harm and strip a parent from sole custody to very
limited supervised contact with only a preponderance
of evidence (and after the claim was re-asserted 7
times and rejected by the court and experts the first
6 times) or sever contact based upon an ex-parte
order later proven to have “no credible factual basis”
but not restore the rights of the accused when they
prevail in the adjudication. This wide disparity in
interpretation is unacceptable. Many families across
the nation are separated needlessly as courts continue
to operate at this lower standard.
If this court set the goal posts as Mr. Dasler
requests, a more unified interpretation of child custody
actions will allow courts to focus on structuring
orders that promote the involvement of fit parents
rather than encouraging the battles that need not
be fought. Children’s protection from abuse and
state intervention in parental rights should be equal

24

regardless of marital status, but interpretations like
Vermont’s allow what is essentially a private prose­
cution, often pitting one party with greater financial
resources against another who is unable to sustain a
defense (certainly not for the span of years and
frequency of filings seen in cases cited below).
In these cases, not only is the accuser granted
the authority to select medical providers/therapists
and conduct essentially a private prosecution where
they often have sole access to the evidence (the medi­
cal providers) due to Sole Parental Rights based
upon ex-parte orders, but the accused has increased
child support obligations as a result of being deprived
of parental contact. When they need those resources
most, in their defense, the state forces them to pay
the adverse party while providing no assistance to
afford a legal defense. In Mr. Dasler’s case, for exam­
ple, Ms. Dasler’s ex-parte action resulted in him
paying her more than 1/3 of his income, leaving him
with $1,200/month to pay all his bills and fund a
defense against the criminal allegations (4 separate
complaints in 9 months), relief from abuse hearing,
and hundreds of pages of filings seeking to further
limit his visitation. •
Mr. Dasler can predict the hesitancy to issue a
decision that causes a ground shift to courts nationwide,
however, many courts already recognize the equal
rights of the parties. For those states that do not, the
courts would simply be obligated to craft orders that
provide equal rights and decrease the judicial burden
of these cases. In the Knutsen case cited below, for
example, there were numerous appeals, many days
of hearings at each stage of the case, and this can all
be supplanted by use of the pre-existing DCF agencies

25

to investigate/prosecute abuse allegations. In cases
like Knutsen, DeSantis, and Mullins (cited below)
such state directed action would likely have protected
these children, vastly reduced court intervention,
and allowed an uninterested state agent to prevent
the baseless allegations from being used as the low
hanging fruit- to disturb parental rights/visitation at
a lower standard. States already have a system for
this.
II.

14th Amendment Issues

Erroneous interpretations of 14th Amendment
Rights to Due Process in Child Custody cases can be
summed up as allowing one parent to waive the higher
standard of evidence required before state interfer­
ence with Parental. Rights. Child Custody isn’t a
battle between two parties. There are three parties
with equal rights, with the child’s interest being
central.
There must be a showing of Clear and Credible
Evidence of harm before the equal rights are disturbed.
This is true regardless of whether a non-parent seeks
visitation (as in Troxel, 530 U.S. 57(2000)) or on the
other extreme when the state seeks to sever Parental
Rights (as in Stanley 405 U.S. 645(1972), and Santosky,
455 U.S. 745(1982)). The outer goal posts are clearly
set for the standard of evidence required for inter­
vention in parental rights.
States establishing a lower standard for parentinitiated interference allow one party to volunteer to
lower the standard of evidence required for state
interference with parental rights. If the child’s interest
is central, then the identity of the moving party is

26

irrelevant to the question of the threshold of harm
required to open the door.
Unfortunately states have not consistently
recognized that the SCOTUS has already established
the outer goal posts for the standard of evidence,
resulting in a wide disparity in legal standards.
The central 14th Amendment issues, as applied
to Child Custody, are
1.

2.

There should be a presumption of Equal
Rights of parents regardless of marital status,
which may be rebutted by Clear and Convincing
Evide nee of harm.
A.

Equal rights of parents upon dissolution
of marriage is presumed at least in NH,
MN, D.C., and LA. Clear and Convincing
Evidence is required to rebut this pre­
sumption.

B.

Conversely, in Vermont, one parent may
veto shared parental rights depriving
the court of jurisdiction to award shared
PRR.

When abuse is alleged the due process stan­
dard is not dependent on whether the accu­
sation is made by one parent against the
other, and the moving parent may not waive
the evidentiary standard under guise of
“the child’s best interest”.
A.

By Supreme Court of Vermont precedent,
an abuse allegation from one parent
against another is considered a “battle
between the two parties”, and requires

27

only the Preponderance of Evidence to
prevail (cited in detail below).
B.

In Mr. Dasler’s home state of NH, the
statute requires Clear and Convincing
Evidence of harm to disturb parental
rights/visitation (NH Rev Stat § 461A:ll), and the rare Federal statute
regarding adjudication of parental rights
concurs (22 U.S.C.S § 9003)

The UCCJEA requires Mr. Dasler to submit to
Vermont Child Custody Law rather than his home
state of New Hampshire, and the Federal court’s
abstention from child custody cases denies Diversity
Jurisdiction. Consequently, Mr. Dasler’s parental rights
are at the mercy of a foreign state that does not
recognize his Constitutional Right to due process con­
sistent with either his home state. It is appropriate for
the SCOTUS to .narrow the goal posts for
interpretation of 14th Amendment Rights.
Had the same case been conducted pursuant to
NH law, Ms. Dasler would have been required to
show Clear and Convincing Evidence of harm to the
child in order to strip Mr. Dasler of his rights.
Conversely, in Vermont she needed only to veto
shared parental rights (15 V.S.A. § 665) and obtain a
temporary ex-parte order obstructing Mr. Dasler’s
parental contact to become “primary caregiver” and
shift the burden of proof to Mr. Dasler (8/17/18 Order
Pg 22).
“A parent’s right to exercise joint legal
custody upon termination of the marriage
can be properly inferred from recognizing
constitutional doctrine pertaining to related

28

familial rights. Once recognized, states must
protect that right by providing for a rebuttable
presumption of joint decision making.”
James W. Bozzomo, Joint Legal Custody: A Parent's
Constitutional Right in a Reorganized Family; 31
Hofstra L. Rev. 547
“The presumption that an award of sole
custody is in the best interests of the child if
parents cannot mutually agree to joint
custody is contrary to the longstanding con­
stitutional doctrine: Fit parents are pre­
sumed to act in the best interests of their
children.”
31 Hofstra L. Rev. 547, 575
The SCOV has declined to even consider the
Constitutionality of 15 V.S.A § 665 if the lower court
can point to something as minor as “animosity between
the parents” to justify an award of Sole Custody to
one parent, and the non-custodial parent receiving
only 25% visitation with the children without any
showing of unfitness or harm (.Bancroft 154 Vt. 442,
443, 578 A.2d 114, 115 (1990)). The Constitutional
question remains unanswered in Vermont unless/until
that magical day when parents divorce, refuse to
share parental rights, and j^et leave the court unable
to sniff out some reason to favor one parent as
directed by precedent even if that is just the divorcing
couple has some animosity (shocker).
SCOV Family Court precedent is littered with
alarming cases that define adjudication in that state.
These cases indicate the danger to parents and
children based upon the low standards of VT Family
Court.

29

In Knutseii, 2016 VT 2 and 2017 VT 62, the
accuser never prevailed in a hearing, but got a tem­
porary order restricting the accused parent’s contact.
In spite of multiple hearings rejecting the abuse alle­
gations and the accuser’s consistent violation of orders
for reunification, the accused could not get visitation
restored. The court reasoned that it couldn’t award
custody to the accused even though it was the “right
thing to do”. Ultimately the accuser could effectively
purchase parental rights because of lack of enforce­
ment of orders (other than paying legal fees, which
he could easily afford apparently) and the accuser’s
ability to simply prevent contact with the accused for
5 years by the time of the 2017 appeal.
In DeSantis, 2011 VT 114 the accused signed a
temporary agreement suspending visitation stipulating
that was to be “be entirely without prejudice” (while
criminal proceedings were pending). 18 months later
the charges were dismissed with prejudice, he filed a
motion to restore contact, however, the court held
against him the time that lapsed since contact
(technically not the order, just the lapse in contact
caused by the order). It also found that although it
couldn’t find sexual abuse by Clear and Convincing
Evidence to terminate rights, it cited multiple oddities
that it conflated with sexual abuse and awarded no
visitation, but was remanded with an indication that
at least supervised visitation would be necessary
without a higher burden of proof.
In Muffin, 162 Vt. 250 the non-custodial parent
desperately wanted sole custody, and made regular
accusations to that end. The first 6 attempts were
soundly rejected by all experts involved, and all courts
that heard the cases. On the 7th attempt, however,

30

the accuser found an expert who ignored the older
child’s claim that mom was coaching them what to
say and staging events to make it look like they were
afraid of dad. The court accepted this to satisfy 51%
certainty to limit the father to supervised contact
(after having sole custody in Utah for years), and
remanded on appeal to strike the requirement that
he admit guilt.
Taken together we can see how an accusing
parent can game the system. At 51% certainty, just
keep flipping the coin till it comes up heads. Or in
the case of Mr. Knutsen, just hang on to the temporary
order as long as possible and count on being able to
prevail BECAUSE of the harm done to the child. In
all of these cases there is injustice done through one
parent interfering with the standards required for
state infringement with the adverse party’s rights,
and children suffer as a result.
The standard should be no different for abuse
cases regardless if the parents are wed or unwed and
regardless of the identity of the moving party. The
children’s rights and interest in protection is equal,
and it is clear that an interested party has tremendous
ability to upset that balance when they wield power
of parental rights oppressively. The harm done to
children is hard to over-state when it is clear, at
least in the Knutsen case, that even when the court
identifies that the accuser is actually the one causing
the harm it is somehow unable to reverse course and
protect the child.
Paraphrasing Stanley v. Illinois and Santosky v.
Kramer, ‘The child registers no gain when taken
from a fit parent, in fact the state spites the child’s
interest and state’s expressed goals when it does so.’

31

Similarly, 15 V.S.A § 650 indicates the court’s
duty is to “maximize” contact “unless harmful”.
Therefore, even by the state definition of the child’s
interest the only outcome that favors the child is an
accurate adjudication of the matter.
“it is in the best’ interests of their minor child to
have the opportunity for maximum continuing physical
and emotional contact with both parents, unless
direct physical harm or significant emotional harm
to the child or a parent is likely to result from such
contact”
More specifically, to the Dasler case, Ms. Dasler’s
ex-parte action fundamentally shifted the burden of
proof to Mr. Dasler. As cited in the Final Divorce
Order below (8/17/18 Order Pg. 22) the role of primary
caregiver (even when it is slight as in MacCormack .
below where parents had 50/50 visitation) is given
great weight unless the primary caregiver is unfit.
By applying this standard, and relying on the 9
month period after separation (when Ms. Dasler
restricted access with an ex-parte order, which she
did not prevail on the merits of), the court is effectively
confirming that Ms.. Dasler’s self-award of primary
caregiver role through an ex-parte action effectively
denied the court jurisdiction to burden her with
justifying that award. Instead, Mr. Dasler needed to
prove she would be harmful to the child in that role.
The 8/17/18 Order cites on pg 22:
“[the primary caregiver role] should be
entitled to great weight unless the primary
custodian is unfit. The exact weight cannot
be determined unless there is evidence of
the likely effect of the change of custodian

32

on the child. In the absence of such evidence,
the court should ordinarily find that the child
should remain with the primary custodian if
that parent is fit.”
Harris v. Harris, 149 Vt. 410 (1988), cited with appro­
val, Alistyen v. Martin, 2016 WL 1824435; MacCormack v. MacCormack, 2015 VT 64 at Para. 13; Rogers
v. Parrish, 2007 VT 35 Para. 19; DeBeaumont v.
Goodrich, 162 Vt. 91, 101 (1994).
The court goes on to rely upon this restriction of
visitation as the overwhelming factor to award custody,
and does not make a finding of harm that justifies
interference with Mr. Dasler’s parental rights.
“Based on the foregoing, the court awards
Jennifer Dasler primary legal and physical
parental rights and responsibilities for Tenley.
This decision is primarily based upon the
court’s conclusion that she has served as
Tenley’s primary care provider, which the
cases cited above afford considerable weight.
Many of the other factors are in equipoise”
but factors 8 and 9 slightly favor Ms.
Dasler.” (8/17/18 Order Pg 23).
So not only did Ms. Dasler successfully shift the
burden of proof to Mr. Dasler through pre-trial
election (vetoing shared parental rights and cited
precedent requiring he prove the ‘primary caregiver’
to be unfit/harmful to restore his rights) and ex-parte
action (awarding herself the “primary caregiver” role),
but in proving Ms. Dasler would be harmful to the
child he still had his hands tied because of the
Hobson’s choice that he faced due to parallel litigation

33

and lack of opportunity to challenge the legitimacy of
his change of status through ex-parte action.
Just to recap here, in May 2017 Ms. Dasler gets
an ex-parte order claiming Mr. Dasler is harmful,
which restricts his rights, she does not prevail in
justifying the suspension of visitation, but somehow
Mr. Dasler’s rights cannot be restored unless he
proves SHE is unfit/harmful to the child. Her pre­
trial elections and ex-parte action prevented the
normal functioning of the adjudicative process, and
precedent foreclosed the court from burdening Ms.
Dasler with prevailing in justifying the interference
with Mr. Dasler’s rights.
While this initially appears to be a judicial mal­
function, which also should be able to be addressed
through Rule 60 action, the question of Fraud Upon
The Court turns on the question of whether or not
there is evidence that Ms. Dasler obtained the exparte order through fraud, which subsequently deprived
the court of authority to preserve Mr. Dasler’s rights.
This is further detailed below under the Fraud Upon
the Court section below.
Mr. Dasler was unable to present such evidence
until after the Final Divorce Hearing because of a
combination of the ongoing criminal investigation,
which did not uncover evidence until after the Final
Divorce Hearing, and Mr. Dasler’s Hobson’s choice
between 5th and 14th Amendment rights while there
was no protection in place, and even actual innocence
would not restore his parental rights without estab­
lishing Ms. Dasler’s role as “primary caregiver” was
harmful to the child.

34

The court provided no opportunity for Mr. Dasler
to present a defense without prejudice. Even if he
waived his 5th Amendment Right and proved “no
basis” for the accusation he would still have to prove
it would be harmful for Ms. Dasler to retain custody
in order to restore his own rights. The burden was
fundamentally shifted to Mr. Dasler.
Neither a stay, nor immunity was available to
prevent prejudice if he plead the 5th. Ms. Dasler was
working directly with the prosecutor, holding sway
over plea deals or diversion, and successfully prevented
the criminal case from being resolved within a time
frame that would allow him to present a Rule 60
motion within 1 year. The No Contest Plea to
Disturbing the Peace accepted late in 2019 was not
available earlier, and Mr. Dasler had no control over
the timing of the resolution, although Ms. Dasler
obstructed deals that the prosecution was otherwise
willing to consider. •
If there is no protection for pleading the 5th, and
waiving the 5th would result in prejudice without
benefitting the civil case (because actual innocence
would not restore his rights), then this Constitutional
conflict is a Hobson’s choice. In such a scenario there
should be no question that Mr. Dasler did not have a
fair opportunity to present a case, and should be free
to come back to court through a Rule 60(b)(6) motion
as the only avenue to present a case. This will be
addressed in greater detail under the Opportunity to
Be Heard section below.

35

III. Fraud Upon the Court
Court interpretations of Fraud Upon the Court
vary wildly. When states adopt Federal rules, as with
Rule 60, Federal precedent should be controlling. There
has been very little direction from the SCOTUS on
what constitutes Fraud Upon the Court.
The SCOV’s interpretation excludes the “first
five classes” of the rule, and focuses on the conduct
rather than the effect on adjudication. Surely that
cannot be an accurate interpretation or it effectively
nullifies Rule 60(B)(6) entirely. One could not bring a
Rule 60 case at all without some kind of evidence
unavailable previously, for example. It is a selfdefeating argument specifically excluded in the lan­
guage of Rule 60(D) {See Godin below, where SCOV
treats Fraud Upon the Court as a Rule 60(B)(6) motion,
not 60(D)(3)).
“See Godin v. Godin, 168 Vt. 514, 518, 725
A.2d 904 (1998) (noting that catch-all pro­
vision is available only when a ground
justifying relief is not encompassed within
any of the first five classes of the rule).
As we recognized in Godin, the fraud-uponthe-court doctrine “has generally been reserved
for only the most egregious misconduct evi­
dencing ... an unconscionable and calculated
design to improperly influence the court.
Montgomery v. Cheshire Handling, 186 Vt. 656, 987
A.2d 337 (2009)
Texas District Court also has a narrow view on
the matter.
“Thus, only in “extraordinary circumstances”

<• •% •

36

should a court find fraud upon the court.
Rozier, supra, 573 F.2d at 1338 n.3. In Rozier,
supra, 573 F.2d at 1338, the Fifth Circuit
cited with approval United States v. Inter­
national Telephone & Telegraph Corp., 349
F. Supp. 22, 29 (D. Conn. 1972), affd without
opinion, 410 U.S. 919 (1973), which stated
that only egregious misconduct, such as
bribery of a judge or members of a jury, or
the fabrication of evidence by a party in
litigation will constitute a fraud upon the
court. “Less egregious misconduct, such as
non-disclosure [**134] to the court of facts
allegedly pertinent to the matter before it
will not ordinarily rise [*6] to the level of
fraud on the court.
Kerwit v. N.&H., No. CA-3-4282, 1978 U.S. Dist.
LEXIS 14425, at *5-6 (N.D. Tex. 11/10/1978)
By contrast, S.D.N.Y. focuses on the ends, rather
than the means.
“fraud upon the 'court occurs where it can be
demonstrated, clearly and convincingly, that
a party has sentiently set in motion some
unconscionable scheme calculated to interfere
with the judicial system’s ability impartially
to adjudicate a matter by improperly influ­
encing the trier or unfairly hampering the
presentation of the opposing party’s claim
or defense.”
Braun v. Zhiguo Fu, No. Ilcv04383 (CM) (DF), 2015
U.S. Dist. LEXIS 90652, at *46 (S.D.N.Y. 6/9/2015)
Mr. Dasler contends that the broad reach of
Fraud Upon the Court is a deliberate construction

37

intended to catch cases like the one at bar where a
party is able to manipulate the process to prevent it
from functioning ordinarily. In the Dasler case, Ms.
Dasler, through fraud, was able to deprive the court
of the jurisdiction to preserve Mr. Dasler’s rights
even if she did not prevail in justifying the interference
with his rights.
Mr. Dasler should not be deprived of recourse
simply because Ms. Dasler found a loophole to exploit
with relatively little effort, but still outside the
bounds of what state precedent allowed the court to
prevent.
The evidence of Ms. Dasler’s fraud upon the
court could not have been presented earlier due to the
Constitutional Conflicts surrounding parallel litigation
and evidence obtained after the hearing. Ms. Dasler,
through influence over prosecution, was able to prevent
the resolution of the criminal case earlier, while
pushing the civil case to happen sooner. The resolution
of the Family case prior to the criminal case was by
her design and outside Mr. Dasler’s control.
When it is clear that a party was able to prevent
another party from having a full and fair opportunity
to present a case and/or obtain a favorable judgement
by subverting the machinery of the court itself, it
should not be discretionary to provide relief.
IV. Opportunity to Be Heard
The constraints of an “opportunity to be heard”
also vary. Specifically in the context of parallel civil
and criminal litigation there is much ambiguity as to
the legal standards. Mr. Dasler contends that when
neither a stay, nor immunity is available and both

38

5th and 14th Amendment Rights are implicated there
should be a heightened expectation of protection for
the accused.
In the case at bar, not only was Mr. Dasler com­
pelled to elect between 5th and 14th Amendment
Rights (with no protection), but proving “no credible
factual basis” (Knutsen, 2016 VT 2 and 2017 VT 62)
to the allegations would not result in a restoration of
his rights because the ex-parte change of status (to
non-custodial parent) is a controlling factor regardless
of the validity of the allegations (8/17/18 Order Pg.22).
The only apparent mechanism to provide relief is
an opportunity to come back with a Rule 60 Motion
to address an issue once the Constitutional Conflict
is no longer present, and have an opportunity to
present evidence that was previously excluded.
When a party is forced to choose waive one right
to claim another it cannot truly be considered a “full
and fair opportunity” to litigate. If there is no protection
available, then a supplemental Rule 60 hearing is
the next best thing, and provides the only opportunity
to address the case without Constitutional Conflict.
Applying this logic, it allows the court to circle
back narrowly in a supplemental hearing to consider
what was unavailable at the time of the previous
hearing and determine whether it would change the
result and, if so, what equitable remedy may be avail­
able at time.
In the Dasler case specifically, the implications
of the Hobson’s choice (between 5th and 14th Amend­
ment Rights when proving ‘actual innocence’ would
still not restore his rights) reach beyond the criminal
accusation. While Mr. Dasler pleads the 5th he is

39

also unable to present evidence of Ms. Dasler’s life
threatening mental health issues and history of
violence without prejudice to his case (due to concerns
of appearing to “blame the victim” while pleading the
5th).
While Mr. Dasler was obligated to prove Ms.
Dasler was unfit/harmful to the child, he was also
constrained in presenting exactly that form of evidence
prior to the resolution of the criminal case. Surely
this cannot be construed as a fair battle between the
parties.
The consequences of the Hobson’s choice reach
far beyond just the defense of the criminal allegations
and implicate not only Mr. Dasler’s ability to defend
himself, but also the child’s right to a hearing in
which both parents have an opportunity to present a
case in her interest.

CONCLUSION
For the foregoing reasons the petitioner requests
the Petition for Writ of Certiorari be granted.
1.

Clarify that a showing of Clear and Convin­
cing Evidence of harm is required to disturb
parental rights.

2.

Clarify that an accusation of abuse should
be adjudicated at the same standard regard­
less of the identity of the moving party, and
that such ‘prosecution/investigation’ should
be directed by state agencies, not self-interested
parties.

40

3.

Clarify Fraud Upon the Court is a matter of
cause and effect, not the level of misconduct.
When a party successfully subverts the
machinery of the court and/or prevents a
party from having a fair opportunity to present
a case Fraud Upon the Court is satisfied.

Clarify that when parallel Civil/Criminal litigation
forces a Hobson’s choice with no protection that a
Rule 60 Motion is an appropriate post-judgement
avenue to provide a Full and Fair Opportunity to
litigate by allowing presentation of evidence previously
excluded by Constitutional Conflict.
Respectfully submitted,
Timothy Dasler
Petitioner Pro Se
488 NH Route 10 Apt D
ORFORD, NH 03777
(802) 369-9993
August 2,2021

APPENDIX TABLE OF CONTENTS
Opinions and Orders
Order of the Vermont Supreme Court
(March 5, 2021)..............................

la

Order of the Vermont Superior Court,
Orange Unit Family Division
(January 23, 2020).........................

9a

Rehearing Order
Order of the Vermont Superior Court,
Orange Unit Family Division
(May 4, 2020).................................

15a

Other Documents
Defendant Timothy Dasler Motion to
Reargument (March 8, 2021)......

17a

Defendant Timothy Dasler Motion to Reconsider
(April 14, 2020)................................................ 37a
Motion for Relief from Judgement
(January 9, 2020).....................

49a

